No. 20-480
IN THE

Supreme Court of the United States
DAVID BABCOCK,
Petitioner,
v.
KILOLO KIJAKAZI, ACTING COMMISSIONER OF SOCIAL SECURITY,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME
TO FILE REPLY BRIEF

RONALD M. BAHRIE
JUSTIN M. BAHRIE
NICHOLAS A. KIPA
BAHRIE LAW, PLLC
6810 S. Cedar St., Ste. 2C
Lansing, MI 48911

NEAL KUMAR KATYAL
Counsel of Record
JESSICA L. ELLSWORTH
REEDY C. SWANSON
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, D.C. 20004
(202) 637-5600
neal.katyal@hoganlovells.com

Counsel for Petitioner
August 5, 2021

APPLICATION
To the Honorable Brett M. Kavanaugh, Associate Justice of the Supreme Court
of the United States and Circuit Justice for the Sixth Circuit:
Pursuant to Rule 30.3 of the Rules of this Court, Petitioner David Babcock respectfully requests a 14-day extension of time, to and including September 8, 2021,
within which to file his reply brief on the merits.
1.

On March 12, 2021, the parties in this case jointly moved pursuant to

Supreme Court Rule 30.4 to extend the time within which to file Petitioner’s opening
brief and Respondent’s brief on the merits. The Court granted that motion on March
22, 2021, extending the due dates to May 20 and July 26, 2021, respectively.
2.

The reply brief for Petitioner is currently due on August 25, 2021, and

the Court has scheduled argument for October 13, 2021. With the 14-day extension
requested in this application, the reply brief would be due on September 8, 2021.
3.

This is Petitioner’s first request for an extension of time for the reply

brief, which Petitioner held until this Court had set oral argument.
4.

The extension is warranted because of a press of other matters under-

signed counsel is handling that are pending in this Court and other courts, including
filing deadlines and preparation for argument in several upcoming cases.
5.

Counsel for Respondent has consented to this extension.

For these reasons, Petitioner respectfully requests that an order be entered
extending the time to file the reply brief to and including September 8, 2021.

1

Respectfully submitted,

RONALD M. BAHRIE
JUSTIN M. BAHRIE
NICHOLAS A. KIPA
BAHRIE LAW, PLLC
6810 S. Cedar St., Ste. 2C
Lansing, MI 48911

/s/ Neal Kumar Katyal
NEAL KUMAR KATYAL
Counsel of Record
JESSICA L. ELLSWORTH
REEDY C. SWANSON
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, D.C. 20004
(202) 637-5600
neal.katyal@hoganlovells.com

Counsel for Petitioner
August 5, 2021

2

